No. 19-507
IN THE SUPREME COURT OF THE UNITED STATES
PUBLISHERS BUSINESS SERVICES, INC., ET AL.,
PETITIONERS
V.

FEDERAL TRADE COMMISSION

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 13th day of December 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 2,008 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 13, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 13, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin's phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0507
PUBLISHERS BUSINESS SERVICES, INC., ET AL.
FTC

CORBIN K. BARTHOLD
WASHINGTON LEGAL FOUNDATION
2009 MASSACHUSETTS AVENUE, NW
WASHINGTON, DC 20036
CBARTHOLD@WLF,ORG
CYNTHIA FLEMING CRAWFORD
CAUSE OF ACTION INSTITUTE
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
571-451-0352
CYNTHIA.CRAWFORD@CAUSEOFACTION.OR
G
PETER W. HOMER
HOMER BONNER JACOBS
1200 FOUR SEASONS TOWER
1441 BRICKELL AVENUE
MIAMI, FL 33131
305-350-5100
PHOMER@HOMERBONNER.COM

